GERHARDSTEIN & BRANCH
A LEGAL PROFESSIONAL ASSOCIATION
CAREW TOWER

441

3400
45202

VINE STREET, SuiTE

C!NCJNNATI, OHIO
TELEPHONE:
fACSIMILE:

(513) 621-9100
(513) 345-5543
*Also admitted in
Minnesota

*ALPHONSE A. GERHARDSTEIN
jENNIFER

M.

L.

BRANCH

CAROLINE HYATT

REBECCA

P.

Of Counsel
F.

ROBERT

SALLEY

LAUFMAN

December 11, 2019

Via Electronic Filing and Hand Delivery

Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re: Dave Yost, et al. v. Planned Parenthood Southwest Ohio Region, et al., No. 19-677
Dear Mr. Harris:
I am COlmsel of record for Respondents in the above-captioned case. The petition for a
writ of certiorari in this case was filed on November 22,2019 and placed on the docket on
November 26,2019. The Brief in Opposition in the case is currently due December 26,2019.
Pursuant to Rule 30.4, on behalf of all Respondents, I respectfully request a 30-day
extension. If the requested extension is granted, Respondents' response would be due on
Monday January 27, 2020. This is Respondents' first request for an extension of time. This
extension is requested due to the press of other matters, including pre-existing personal and
professional commitments.
Thank you for your consideration of this matter.

Respectful~tm~
Branch
Respondents
cc:

Benjamin M. Flowers (via U.S. mail and email)
Stephen P. Carney (via U.S. mail and email)
Roger E. Friedmarm (via U.S. mail and email)
Michael G. Florez (via U.S. mail and email)

